i

No.

Supreme Court of the United States

Patricia Ann Wade, Petitioner
v.
Trustees of Indiana University, et al., Respondent

Certificate of Service

As the petitioner, Patricia Ann Wade, I hereby certify that on November 9, 2020,1 mailed a
Petition for a Writ of Certiorari and Motion for Leave to Proceed in Forma Pauperis to the U.S.
Supreme Court via USPS. I emailed a copy of the Writ of Certiorari and the Motion to the Attorney for
the Respondent at jdawsonPtaftlaw.com. I declare under penalty of perjury that the foregoing is true
and correct.
The Seventh Circuit Appellate Court Case # is 19-2936.

Respectfully submitted this 9th day of November, 2020.
y

/

Patricia Ann Wade, Pro Se Petitioner
512 Grand View St
Spencer, IN 47460
blissfulafterglowPgmail.com
317 519-4041

No.

Supreme Court of the United States

Patricia Ann Wade, Petitioner
v.
Trustees of Indiana University, et al., Respondent

Certificate of Compliance with Word Count

As the petitioner, Patricia Ann Wade, I hereby certify that the petition for a writ of certiorari
contains

words, excluding the parts of the petition that are exempted by the U.S.

Supreme Court Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted this 9th day of November, 2020.

a.
Patricia Ann Wade, Pro Se Petitioner
512 Grand View St
Spencer, IN 47460
blissfulafterglow(fr)gmail.com
317 519-4041

